Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 NEBRASKA STATE MEDICAID
   FRAUD CONTROL UNIT:
    2014 ONSITE REVIEW




                         Brian P. Ritchie
                 Acting Deputy Inspector General
                  for Evaluation and Inspections

                          June 2014
                        OEI-07-14-00060
EXECUTIVE SUMMARY: NEBRASKA STATE MEDICAID FRAUD CONTROL
UNIT: 2014 ONSITE REVIEW
OEI-07-14-00060

WHY WE DID THIS STUDY
The Office of Inspector General (OIG) oversees the activities of all Medicaid Fraud
Control Units (MFCUs or Units). As part of this oversight, OIG conducts periodic
reviews of all Units and prepares public reports based on these reviews. The reviews
assess Unit performance in accordance with the 12 MFCU performance standards and
monitor Unit compliance with Federal grant requirements.

HOW WE DID THIS STUDY
We conducted an onsite review in February 2014. We analyzed data from seven
sources: (1) a review of policies, procedures, and documentation related to the Unit’s
operations, staffing, and caseload for fiscal years (FYs) 2011 through 2013; (2) a review
of financial documentation for FYs 2011 through 2013; (3) structured interviews with
key stakeholders; (4) a survey of Unit staff; (5) structured interviews with the Unit’s
management; (6) an onsite review of a sample of case files that were open in
FYs 2011 through 2013; and (7) an onsite observation of Unit operations.

WHAT WE FOUND
For FYs 2011 through 2013, the Unit reported combined civil and criminal recoveries of
nearly $33 million and 22 criminal convictions. Our review identified that 91 percent of
cases files contained documentation of periodic supervisory reviews and nearly all case
files contained documentation of supervisory approval for opening and closing.
However, the Unit did not transmit reports of nine convictions to OIG for the purpose of
program exclusion, and conviction information for two cases was not transmitted in a
timely manner. Additionally, the Unit’s Memorandum of Understanding with the State
Medicaid agency did not reflect current Federal legal requirements. Lastly, although
85 percent of Nebraska Medicaid enrollees received health care through managed care,
the Unit received only three managed care referrals during the review period.

WHAT WE RECOMMEND
The Unit should work with OIG’s MFCU oversight division to ensure compliance with
the 12 performance standards. The Nebraska Unit concurred with all four of our
recommendations.
TABLE OF CONTENTS
Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................6 

           For FYs 2011 through 2013, the Nebraska Unit reported 

           combined civil and criminal recoveries of nearly $33 million 

           and 22 criminal convictions .............................................................6

           Ninety-one percent of cases files contained documentation of 

           periodic supervisory reviews; nearly all case files contained 

           documentation of supervisory approval for opening and closing ....6 

           The Unit did not transmit reports of nine convictions to OIG for 

           the purpose of program exclusion; conviction information for 

           two cases was not transmitted in a timely manner ...........................7 

           The Unit’s MOU with the State Medicaid agency did not reflect
           current Federal legal requirements...................................................8 

           Although 85 percent of Nebraska Medicaid enrollees received 

           health care through managed care, the Unit received only 

           three managed care referrals during FYs 2011 through 2013 ..........8 

Conclusion and Recommendations ............................................................10 

Unit Comments and Office of Inspector General Response ......................12 

Appendixes ................................................................................................13 

           A: 2012 Revised Performance Standards .....................................13 

           B: 1994 Performance Standards....................................................20 

           C: Detailed Methodology..............................................................24 

           D: Investigations Opened and Closed By Provider Category 

           for FYs 2011 Through 2013 ...........................................................27 

           E: Medicaid Fraud Control Unit Referrals by Referral Source 

           for FYs 2011 Through 2013 ...........................................................28 

           F: Point Estimates and Confidence Intervals ................................30 

           G: Unit Comments ........................................................................31 

Acknowledgments......................................................................................35 

                  OBJECTIVE
                  To conduct an onsite review of the Nebraska State Medicaid Fraud
                  Control Unit (MFCU or Unit).

                  BACKGROUND
                  The mission of State MFCUs, as established by Federal statute, is to
                  investigate and prosecute Medicaid provider fraud and patient abuse and
                  neglect under State law.1 Pursuant to Title XIX of the SSA, each State
                  must maintain a certified Unit unless the Secretary of Health and Human
                  Services determines that operation of a Unit would not be cost effective
                  because (1) minimal Medicaid fraud exists in that State; and (2) the State
                  has other adequate safeguards to protect Medicaid beneficiaries from
                  abuse and neglect.2 Currently, 49 States and the District of Columbia
                  (States) have created such Units.3 In FY 2013, combined Federal and
                  State grant expenditures for the Units totaled $230 million.4, 5 That year,
                  the 50 Units employed 1,912 individuals.6
                  To carry out its duties and responsibilities in an effective and efficient
                  manner, each Unit must employ an interdisciplinary staff that consists of at
                  least an investigator, an auditor, and an attorney.7 Unit staff review
                  complaints provided by the State Medicaid agency and other sources and
                  determine their potential for criminal prosecution and/or civil action. In
                  FY 2013, the 50 Units collectively obtained 1,341 convictions and
                  879 civil settlements or judgments.8 That year, the Units reported
                  recoveries of approximately $2.5 billion.9



                  1
                    Social Security Act (SSA) § 1903(q).

                  2
                    SSA §§ 1902(a)(61). Regulations at 42 CFR 1007.11(b)(1) add that the Unit’s 

                  responsibilities may include reviewing complaints of misappropriation of patients’ 

                  private funds in residential health care facilities. 

                  3
                    North Dakota and the territories of American Samoa, Guam, the Northern Mariana 

                  Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units.
                  4
                    All FY references in this report are based on the Federal FY (October 1 through

                  September 30).

                  5
                    Office of Inspector General (OIG), Medicaid Fraud Control Units Statistical Data for 

                  Fiscal Year 2013. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                  mfcu/expenditures_statistics/fy2013-statistical-chart.htm on March 11, 2014. 

                  6
                    Ibid. 

                  7
                    SSA § 1903(q)(6) and 42 CFR §1007.13. 

                  8
                    OIG, Medicaid Fraud Control Units Statistical Data for Fiscal Year 2013. Accessed at 

                  http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/expenditures_statistics/

                  fy2013-statistical-chart.htm on March 11, 2014. 

                  9
                    Ibid. 



Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                       1
                  The Unit must be in an office of the State Attorney General, another State
                  government office with Statewide prosecutorial authority, or operate under
                  a formal arrangement with the State Attorney General’s office.10 Units are
                  required to have either Statewide authority to prosecute cases or formal
                  procedures to refer suspected criminal violations to an agency with such
                  authority.11 In 44 States, the Units are located within offices of State
                  Attorneys General; in the remaining 6 States, the Units are located in other
                  State agencies.12, 13 Generally, Units located outside of an Attorney
                  General’s Office must refer cases to other offices with prosecutorial
                  authority.
                  Each Unit must be a single identifiable entity of State government, distinct
                  from the State Medicaid agency and each Unit must develop a formal
                  agreement—i.e., a Memorandum of Understanding (MOU)—that
                  describes the Unit’s relationship with that agency.14
                  Oversight of the MFCU Program
                  The Secretary of Health and Human Services delegated to OIG the
                  authority to both annually certify the Units and to administer grant awards
                  to reimburse States for a percentage of their costs of operating certified
                  Units.15 All Units are currently funded by the Federal Government on a
                  75-percent matching basis, with the States contributing the remaining
                  25 percent.16 To receive Federal reimbursement, each Unit must submit an
                  initial application to OIG.17 OIG reviews the application and notifies the
                  Unit if the application is approved and the Unit is certified. Approval and
                  certification are for a 1-year period; the Unit must be recertified each year
                  thereafter.18
                  Pursuant to Title XIX of the SSA, States must operate Units that
                  effectively carry out their statutory functions and meet program


                  10
                     59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov/fraud/medicaid-
                  fraud-control-units-mfcu/files/Performance%20Standards.pdf on February 21, 2014. 

                  11
                     SSA § 1903(q)(1).

                  12
                     OIG, Medicaid Fraud Control Units. Accessed at http://oig.hhs.gov/fraud/medicaid-
                  fraud-control-units-mfcu/index.asp on March 11, 2014.

                  13
                     The Unit shares responsibility for protecting the integrity of the Medicaid program

                  with the section of the State Medicaid agency that functions as the Program Integrity 

                  Unit. Some States also employ a Medicaid Inspector General who conducts and

                  coordinates fraud, waste, and abuse activities for the State agency. 

                  14
                     SSA § 1903(q)(2); 42 CFR §§ 1007.5 and 1007.9(d).

                  15
                     The portion of funds reimbursed to States by the Federal Government for its share of

                  expenditures for the Federal Medicaid program, including the MFCUs, is called Federal

                  Financial Participation (FFP). 

                  16
                     SSA §§ 1903(a)(6)(B). 

                  17
                     42 CFR § 1007.15(a).

                  18
                     42 CFR § 1007.15(b) and (c).


Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                         2
                  requirements.19 OIG developed and issued 12 Performance Standards to
                  further define the criteria it applies in assessing whether a Unit is
                  effectively carrying out statutory functions and meeting program
                  requirements.20 Examples of criteria include maintaining an adequate
                  caseload through referrals from several sources, maintaining an annual
                  training plan for all professional disciplines, and establishing policy and
                  procedure manuals to reflect the Unit’s operations. See Appendix A for
                  the 2012 Performance Standards used in this review and Appendix B for
                  the1994 Performance Standards.
                  Nebraska State MFCU
                  The Nebraska Unit is located in the Office of Attorney General within the
                  Nebraska Department of Justice and has Statewide criminal and civil
                  jurisdiction to prosecute cases. At the time of our review, the Unit’s nine
                  employees were located in the State capital of Lincoln. These nine
                  employees include: three attorneys, two investigators, two auditors, a data
                  analyst, and a legal assistant. For FY 2013, the Unit expended a total of
                  $770,566 in combined Federal and State funds.21
                  Referrals. The Unit receives referrals of Medicaid fraud and of patient
                  abuse and neglect from the State Medicaid agency, Adult Protective
                  Services (APS), the Attorney General’s Web site, the State Long Term
                  Care Ombudsman, and private citizens. (See Appendix D for MFCU
                  referrals by referral source for FYs 2011 through 2013.) Unit staff follow
                  a set of screening procedures in determining whether to open referrals as
                  cases. For example, the Chief of Investigations screens all APS
                  complaints and forwards them as potential cases to the Unit director for
                  further review. For referrals made by sources other than APS (e.g.,
                  referrals from the State Medicaid agency), the legal assistant or recipient
                  of the referral reviews the information, and, if necessary, gathers
                  additional information or documentation necessary for preparing a case
                  intake form. The legal assistant completes the case intake forms and
                  gathers relevant preliminary information (e.g., following up with local law
                  enforcement if they are involved or verifying whether the Unit or State
                  Medicaid agency has investigated or is currently investigating the provider
                  or suspect). The legal assistant forwards the intake forms to the Unit

                  19
                     SSA § 1902(a)(61).
                  20
                     OIG initially published performance standards in 1994 (59 Fed. Reg. 49080) and
                  issued revised standards on June 1, 2012. (See 77 Fed. Reg. 32645.) Although the
                  1994 Performance Standards were in effect during most of the review period, we apply
                  the 2012 performance standards where appropriate in the findings and report
                  recommendations.
                  21
                     OIG, Medicaid Fraud Control Units Statistical Data for Fiscal Year 2013. Accessed
                  at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/expenditures_statistics/
                  fy2013-statistical-chart.htm on March 11, 2014.

Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                           3
                  director for final review and then to the Chief Investigator for staff
                  assignments. Referrals that are not related to Medicaid fraud, patient
                  abuse, patient neglect, or misappropriation of patient funds are redirected
                  to the proper agency.
                  Investigation and Prosecution. The Unit uses a team approach in the
                  investigation and prosecution of cases of Medicaid fraud and patient abuse
                  and neglect. Generally, teams consist of one investigator, one auditor, and
                  one attorney. An investigator or auditor is assigned as the team leader and
                  is responsible for coordinating case activities, such as analyzing
                  documents, interviewing witnesses, serving subpoenas, assisting in search
                  warrants, and preparing factual findings. The attorney assigned to the case
                  is responsible for providing legal expertise and guidance to the
                  investigative team, securing access to the providers’ records, obtaining
                  documentary evidence for trial, and developing a legal theory for
                  prosecution.
                  Previous Review
                  In 2007, OIG conducted an onsite review of the Nebraska MFCU and found
                  that the Unit did not adequately document the current status and progress
                  made in ongoing case investigations and/or prosecutions. Further, several of
                  the case files reviewed by OIG did not include an identifiable record to
                  indicate that an official MFCU investigation had begun or had been formally
                  approved. OIG also found that case files reviewed contained no formal final
                  statement or closing report summarizing the final disposition of the cases.
                  OIG concluded that the lack of sufficient documentation in the case files
                  reviewed made it difficult to determine the exact status of the cases and
                  progress made in them. OIG strongly suggested that the Unit incorporate
                  opening, interim, and closing investigative memorandum(s) into the case file
                  records to ensure that investigations and prosecutions of cases would not
                  linger or falter. OIG also suggested that the Unit consider incorporating a
                  sequential file index in each case file.

                  METHODOLOGY
                  We conducted the onsite review in February 2014. We based our review
                  on an analysis of data from seven sources: (1) a review of policies and
                  procedures and documentation on the Unit’s operations, staffing, and
                  caseload for FYs 2011 through 2013; (2) a review of financial
                  documentation for FYs 2011 through 2013; (3) structured interviews with
                  key stakeholders; (4) a survey of Unit staff; (5) structured interviews with
                  the Unit’s management; (6) an onsite review of a sample of case files that
                  were open at any time in FYs 2011 through 2013; and (7) an onsite



Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                4
                  observation of Unit operations. Appendix C contains the details of our
                  methodology.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)           5
                  FINDINGS
                  For FYs 2011 through 2013, the Nebraska Unit
                  reported combined civil and criminal recoveries of
                  nearly $33 million and 22 criminal convictions
                  The Unit reported combined criminal and civil recoveries of nearly
                  $33 million for FYs 2011 through 2013. The majority of the recoveries
                  were obtained from “global” settlements, which accounted for 91 percent
                  of the Unit’s recoveries during the period of our review.22 See Table 1 for
                  details regarding criminal and civil recoveries.
                  Table 1: Reported Nebraska MFCU Criminal and Civil Recoveries,
                  FYs 2011–2013

                    Type of                                                                             Total
                                                 FY 2011             FY 2012             FY 2013
                    Recovery                                                                       Recoveries
                    Criminal
                                                   $7,679             $11,268            $16,380      $35,327
                    Recoveries
                    Global Case
                                              $7,564,528         $15,411,411         $6,608,548    $29,584,487
                    Recoveries
                    Nonglobal
                                                $507,516            $569,870         $1,809,037     $2,886,423
                    Civil Recoveries
                       Total
                                              $8,079,723         $15,992,549         $8,433,965    $32,506,237
                       Recoveries

                  Source: OIG analysis of Unit Submitted Documentation, FYs 2011–2013.


                  During the review period, the Unit closed 366 investigations, obtained
                  54 civil settlements and judgments, charged 26 individuals, obtained
                  22 criminal convictions, and had 1 dismissal. See Appendix E for details
                  on investigations opened and closed by provider category for
                  FYs 2011 through 2013.

                  Ninety-one percent of case files contained
                  documentation of periodic supervisory reviews; nearly
                  all case files contained documentation of supervisory
                  approval for opening and closing
                  According to the 2012 Performance Standard 7(a), supervisory reviews
                  should be conducted periodically and noted in the case file to ensure
                  timely case completion. The Unit director reported that supervisory




                  22
                    “Global” cases are civil false-claims actions involving the U.S. Department of Justice
                  and other State MFCUs. The National Association of Medicaid Fraud Control Units
                  facilitates the settlement of global cases.

Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                                 6
                  reviews were conducted at least once a month.23 Ninety-one percent of
                  case files for cases open longer than 30 days contained documentation of
                  periodic supervisory reviews. Ninety-eight percent of case files for cases
                  open longer than 30 days contained documentation of at least one
                  supervisory review. (See Appendix F for all estimates and 95-percent
                  confidence intervals for projections.)
                  Additionally, according to the 2012 Performance Standard 5(b), Unit
                  supervisors should approve the opening and closing of cases to ensure a
                  continuous case flow and timely completion of cases. We found that
                  98 percent of all case files contained documentation of supervisory
                  approval of opening and that 100 percent of closed case files contained
                  documentation of supervisory approval of closing the case.

                  The Unit did not transmit reports of nine convictions
                  to OIG for the purpose of program exclusion;
                  conviction information for two cases was not
                  transmitted in a timely manner
                  According to the 2012 Performance Standard 8(f), the Unit should
                  transmit to OIG reports of all convictions for the purpose of exclusion
                  from Federal health care programs. Specifically, this standard stipulates
                  that convictions should be reported within 30 days of sentencing.
                  The Unit did not submit all conviction information to OIG for the purpose
                  of program exclusion; of the 22 convictions that should have been sent to
                  OIG for exclusion, 9 convictions were not submitted. 24 These nine
                  convictions were related to patient-funds cases that involved sentencing of
                  nonproviders. Of the 13 convictions that were transmitted, 2 were not
                  transmitted in a timely manner. Specifically, the Unit transmitted
                  information to OIG 229 days after sentencing for one conviction and
                  300 days after sentencing for the other.


                  23
                     The Unit director reported that supervisory reviews are conducted twice a month. A
                  formal review occurs during the Unit’s monthly team meetings. All Unit staff are present
                  during these meetings, and the status of all open cases and next steps for them are
                  discussed and reviewed. A second informal review of each case is conducted in smaller
                  groups, which include the Unit director, senior assistant attorney general, chief
                  investigator, and the lead auditor or investigator assigned to the case. The Unit director
                  reported that he maintains notes from these informal meetings, but that notes from these
                  meetings are not maintained in the case files. For the purposes of our review, we
                  reviewed the case files (including the electronic case file database) to determine whether
                  at least one supervisory review was documented in the case file for each month the case
                  was open.
                  24
                     OIG confirmed that as of June 3, 2014 (after we collected information for our onsite
                  review), the Unit had submitted information for all nine convictions.

Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                          7
                  The Unit’s MOU with the State Medicaid agency did
                  not reflect current Federal legal requirements
                  According to the 2012 Performance Standard 10(b), the Unit’s MOU with
                  the State Medicaid agency should meet current Federal legal requirements,
                  including provisions for payment suspension on the basis of credible
                  allegation of fraud.25 The Unit’s MOU, last updated in 2011, did not
                  include provisions describing the process between the Unit and the State
                  Medicaid agency for providers who were subject to a payment suspension
                  on the basis of credible allegation of fraud. However, both the Unit
                  director and the director of the Nebraska Medicaid Program Integrity Unit
                  indicated that payment suspension protocols were in place between the
                  Unit and the State Medicaid agency during the review period.

                  Although 85 percent of Nebraska Medicaid enrollees
                  received health care through managed care, the Unit
                  received only 3 managed care referrals during
                  FYs 2011 through 2013
                  According to the 2012 Performance Standard 4(a), the Unit should take
                  steps to ensure that managed care organizations (MCOs) refer cases of
                  suspected provider fraud to the Unit. As of July 2010, 85 percent of
                  Nebraska Medicaid enrollees received their health care services through
                  MCOs.26 However, in FYs 2011 through 2013, the Unit reported receiving
                  a total of three MCO referrals—two referrals in FY 2012 and one referral
                  in FY 2013.
                  For FYs 2011 through 2013, both the Unit director and the director of the
                  Nebraska Medicaid Program Integrity Unit (PI Unit) reported that MCOs
                  were not required to refer cases of Medicaid fraud to the Unit, but rather to
                  the State Medicaid agency. The PI Unit director stated: “[I]f there are
                  concerns of waste and abuse, [MCOs] share that with us, and we make a
                  referral to the MFCU.” Of the three MCO referrals received during
                  FYs 2011 through 2013, two of the referrals were received by the State
                  Medicaid agency and then referred to the Unit. The third MCO referral

                  25
                     The Affordable Care Act, § 6402(h)(2), requires State Medicaid programs, as a
                  condition of receiving FFP, to suspend payments to providers for whom there is a
                  credible allegation of fraud, unless good cause exists to not suspend payments. One way
                  to establish good cause is for the MFCU to inform the State Medicaid agency that the
                  suspension would compromise or jeopardize its investigation of the provider. The
                  Centers for Medicare and Medicaid Services (CMS) and OIG implemented this provision
                  in revisions to 42 CFR §§ 455.23 and 1007.9(e) effective March 25, 2011 (76 Fed. Reg.
                  5862).
                  26
                     CMS, Medicaid Managed Care Enrollment as of July 1, 2010. Accessed online at
                  http://www.cms.gov/Research-Statistics-Data-and-Systems/Computer-Data-and-
                  Systems/MedicaidDataSourcesGenInfo/Downloads/2010July1.pdf on March 17, 2014.

Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                       8
                  was received directly from an MCO. During our onsite review, the Unit
                  director stated that the Unit is seeking recognition as a required recipient
                  of referrals in the contract between the State Medicaid agency and MCOs.
                  To facilitate this recognition, the Unit director reported that Unit staff
                  attend quarterly meetings with the State Medicaid agency and MCOs.




Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)             9
                  CONCLUSION AND RECOMMENDATIONS
                  For FYs 2011 through 2013, the Unit reported combined civil and criminal
                  recoveries of nearly $33 million. During the review period, the Unit
                  closed 366 investigations with 26 individuals charged, obtained 54 civil
                  settlements and judgments, obtained 22 criminal convictions, and had
                  1 dismissal.
                  Our review identified that 91 percent of cases files contained
                  documentation of periodic supervisory reviews, and nearly all case files
                  contained documentation of supervisory approval for opening and closing.
                  However, the Unit did not transmit reports of nine convictions to OIG for
                  the purpose of program exclusion, and conviction information for two
                  cases was not transmitted in a timely manner. Additionally, the Unit’s
                  MOU with the State Medicaid agency did not reflect current Federal legal
                  requirements because the MOU did not address payment suspension on
                  the basis of a credible allegation of fraud. Lastly, although 85 percent of
                  Nebraska Medicaid enrollees received health care through managed care,
                  the Unit received only three managed care referrals during the review
                  period.
                  We recommend that the Nebraska Unit:
                  Ensure that all open cases receive periodic supervisory review
                  in accordance with Unit policy
                  The Unit should ensure that all open cases receive periodic supervisory
                  review at least once a month throughout the duration of the case and
                  should document these reviews in the case file, in accordance with Unit
                  policy. Doing so will ensure that supervisory reviews are conducted
                  periodically and noted in the case file to ensure timely case completion.
                  Transmit reports of all convictions to OIG for the purpose of
                  exclusion from Federal health care programs
                  The Unit should ensure that all individuals convicted of fraud, abuse,
                  and/or neglect, including individuals with convictions related to patient
                  funds, are reported to OIG within 30 days of their sentencing.
                  Revise the current MOU with the State Medicaid agency to
                  reflect current Federal legal requirements
                  The Unit should work with the State Medicaid agency to revise its MOU
                  to reflect the current Federal legal requirement of payment suspension on
                  the basis of credible allegation of fraud.
                  Continue to take steps to ensure that the State Medicaid
                  agency and MCOs refer all suspected cases of fraud among
                  managed care providers to the Unit


Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)              10
                  The Unit should continue to work with the State Medicaid agency and
                  MCOs to ensure that all suspected cases of fraud among managed care
                  providers are referred to the Unit. This could include the development of
                  operational protocols focused on fraud among managed care providers and
                  might specifically include recognition of the MFCU as a direct recipient of
                  referrals from MCOs. Further, the Unit should work with the State
                  Medicaid agency to obtain all necessary information that the latter
                  receives from MCOs regarding suspected fraud in managed care.




Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)           11
                  UNIT RESPONSE AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  The Nebraska Unit concurred with all four of our recommendations.
                  The Unit concurred with our first recommendation (that it ensure that all
                  open cases receive periodic supervisory review). The Unit stated that
                  although a high percentage of its case files include documentation of
                  supervisory review, as well as documentation of supervisory approval of
                  the opening and closing of the case, it will strive to achieve 100-percent
                  compliance for future reviews.
                  The Unit concurred with our second recommendation (that it transmit
                  reports of all convictions to OIG for the purpose of exclusion). The Unit
                  stated that the nine convictions that were not submitted to OIG were
                  related to matters other than health care fraud, specifically, the theft of
                  patient funds by nonproviders. The Unit stated that its interpretation of
                  existing law and regulations had been that convictions of nonproviders did
                  not need to be reported to OIG for the purpose of program exclusion. The
                  Unit stated that, since learning that OIG interprets law and regulations to
                  include nonproviders, it has referred all nine convictions to OIG for the
                  purpose of program exclusion. The Unit also indicated that in the future,
                  it will refer all convictions to OIG for exclusion within 30 days of
                  sentencing.
                  The Unit concurred with our third recommendation (that it revise the
                  current MOU with the State Medicaid agency to reflect current Federal
                  legal requirements). The Unit acknowledged that the current MOU does
                  not address a protocol for the suspension of payment to providers on the
                  basis of credible allegation of fraud. The Unit stated that an addendum to
                  the current MOU will be drafted to formally add a payment suspension
                  protocol. The Unit anticipated that this addendum would be added by the
                  end of 2014.
                  The Unit concurred with our fourth recommendation (that it continue to
                  take steps to ensure that the State Medicaid agency and MCOs refer all
                  suspected cases of fraud among managed care providers). The Unit stated
                  that contracts between the State Medicaid agency and the MCOs did not
                  identify the Unit as a stakeholder in pursuing fraud among managed care
                  providers. The Unit also stated that it is attempting to resolve the issue as
                  the contracts come up for renewal or revision. Further, the Unit stated that
                  it participates in quarterly meetings between Medicaid staff and MCOs.
                  The full text of the Unit’s comments is provided in Appendix G.


Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)               12
                  APPENDIX A
                  2012 Revised Performance Standards27
                  1. 	A unit conforms with all applicable statutes, regulations, and
                      policy directives, including:
                         a.	 Section 1903(q) of the Social Security Act, containing the basic
                             requirements for operation of a MFCU;
                         b.	 Regulations for operation of a MFCU contained in 42 CFR 

                             part 1007; 

                         c.	 Grant administration requirements at 45 CFR part 92 and Federal
                             cost principles at 2 CFR part 225;
                         d.	 OIG policy transmittals as maintained on the OIG Web site; and
                         e.	 Terms and conditions of the notice of the grant award.
                  2. 	A Unit maintains reasonable staff levels and office locations in
                      relation to the State’s Medicaid program expenditures and in
                      accordance with staffing allocations approved in its budget.
                         a.	 The Unit employs the number of staff that is included in the Unit’s
                             budget estimate as approved by OIG.
                         b.	 The Unit employs a total number of professional staff that is
                             commensurate with the State’s total Medicaid program
                             expenditures and that enables the Unit to effectively investigate
                             and prosecute (or refer for prosecution) an appropriate volume of
                             case referrals and workload for both Medicaid fraud and patient
                             abuse and neglect.
                         c.	 The Unit employs an appropriate mix and number of attorneys,
                             auditors, investigators, and other professional staff that is both
                             commensurate with the State’s total Medicaid program
                             expenditures and that allows the Unit to effectively investigate and
                             prosecute (or refer for prosecution) an appropriate volume of case
                             referrals and workload for both Medicaid fraud and patient abuse
                             and neglect.
                         d.	 The Unit employs a number of support staff in relation to its
                             overall size that allows the Unit to operate effectively.
                         e.	 To the extent that a Unit maintains multiple office locations, such
                             locations are distributed throughout the State, and are adequately


                  27
                       77 Fed. Reg. 32645, June 1, 2012.

Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                   13
                            staffed, commensurate with the volume of case referrals and
                            workload for each location.
                  3. 	A Unit establishes written policies and procedures for its
                      operations and ensures that staff are familiar with, and adhere to,
                      policies and procedures.
                       a.	 The Unit has written guidelines or manuals that contain current
                           policies and procedures, consistent with these performance
                           standards, for the investigation and (for those Units with
                           prosecutorial authority) prosecution of Medicaid fraud and patient
                           abuse and neglect.
                       b.	 The Unit adheres to current policies and procedures in its 

                           operations. 

                       c.	 Procedures include a process for referring cases, when appropriate,
                           to Federal and State agencies. Referrals to State agencies,
                           including the State Medicaid agency, should identify whether
                           further investigation or other administrative action is warranted,
                           such as the collection of overpayments or suspension of payments.
                       d.	 Written guidelines and manuals are readily available to all Unit
                           staff, either online or in hard copy.
                       e.	 Policies and procedures address training standards for Unit 

                           employees. 

                  4. 	A Unit takes steps to maintain an adequate volume and quality of
                      referrals from the State Medicaid agency and other sources.
                       a.	 The Unit takes steps, such as the development of operational
                           protocols, to ensure that the State Medicaid agency, managed care
                           organizations, and other agencies refer to the Unit all suspected
                           provider fraud cases. Consistent with 42 CFR 1007.9(g), the Unit
                           provides timely written notice to the State Medicaid agency when
                           referred cases are accepted or declined for investigation.
                       b.	 The Unit provides periodic feedback to the State Medicaid agency
                           and other referral sources on the adequacy of both the volume and
                           quality of its referrals.
                       c.	 The Unit provides timely information to the State Medicaid or
                           other agency when the Medicaid or other agency requests
                           information on the status of MFCU investigations, including when
                           the Medicaid agency requests quarterly certification pursuant to
                           42 CFR 455.23(d)(3)(ii).



Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)              14
                       d.	 For those States in which the Unit has original jurisdiction to
                           investigate or prosecute patient abuse and neglect cases, the Unit
                           takes steps, such as the development of operational protocols, to
                           ensure that pertinent agencies refer such cases to the Unit,
                           consistent with patient confidentiality and consent. Pertinent
                           agencies vary by State but may include licensing and certification
                           agencies, the State Long Term Care Ombudsman, and adult
                           protective services offices.
                       e.	 The Unit provides timely information, when requested, to those
                           agencies identified in (D) above regarding the status of referrals.
                       f.	 The Unit takes steps, through public outreach or other means, to
                           encourage the public to refer cases to the Unit.
                  5. 	A Unit takes steps to maintain a continuous case flow and to
                      complete cases in an appropriate timeframe based on the
                      complexity of the cases.
                       a.	 Each stage of an investigation and prosecution is completed in an
                           appropriate timeframe.
                       b.	 Supervisors approve the opening and closing of all investigations
                           and review the progress of cases and take action as necessary to
                           ensure that each stage of an investigation and prosecution is
                           completed in an appropriate timeframe.
                       c.	 Delays to investigations and prosecutions are limited to situations
                           imposed by resource constraints or other exigencies.
                  6. 	A Unit’s case mix, as practicable, covers all significant provider
                      types and includes a balance of fraud and, where appropriate,
                      patient abuse and neglect cases.
                       a.	 The Unit seeks to have a mix of cases from all significant provider
                           types in the State.
                       b.	 For those States that rely substantially on managed care entities for
                           the provision of Medicaid services, the Unit includes a
                           commensurate number of managed care cases in its mix of cases.
                       c.	 The Unit seeks to allocate resources among provider types based
                           on levels of Medicaid expenditures or other risk factors. Special
                           Unit initiatives may focus on specific provider types.
                       d.	 As part of its case mix, the Unit maintains a balance of fraud and
                           patient abuse and neglect cases for those States in which the Unit
                           has original jurisdiction to investigate or prosecute patient abuse
                           and neglect cases.

Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                 15
                       e.	 As part of its case mix, the Unit seeks to maintain, consistent with
                           its legal authorities, a balance of criminal and civil fraud cases.
                  7. 	A Unit maintains case files in an effective manner and develops a
                      case management system that allows efficient access to case
                      information and other performance data.
                       a.	 Reviews by supervisors are conducted periodically, consistent with
                           MFCU policies and procedures, and are noted in the case file.
                       b.	 Case files include all relevant facts and information and justify the
                           opening and closing of the cases.
                       c.	 Significant documents, such as charging documents and settlement
                           agreements, are included in the file.
                       d.	 Interview summaries are written promptly, as defined by the Unit’s
                           policies and procedures.
                       e.	 The Unit has an information management system that manages and
                           tracks case information from initiation to resolution.
                       f.	 The Unit has an information management system that allows for
                           the monitoring and reporting of case information, including the
                           following:
                                 1.	 The number of cases opened and closed and the reason that
                                     cases are closed.
                                 2.	 The length of time taken to determine whether to open a
                                     case referred by the State Medicaid agency or other
                                     referring source.
                                 3.	 The number, age, and types of cases in the Unit’s
                                     inventory/docket.
                                 4.	 The number of referrals received by the Unit and the
                                     number of referrals by the Unit to other agencies.
                                 5.	 The dollar amount of overpayments identified.
                                 6.	 The number of cases criminally prosecuted by the Unit or
                                     referred to others for prosecution, the number of
                                     individuals or entities charged, and the number of pending
                                     prosecutions.
                                 7.	 The number of criminal convictions and the number of civil
                                     judgments.
                                 8.	 The dollar amount of fines, penalties, and restitution
                                     ordered in a criminal case and the dollar amount of


Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                  16
                                     recoveries and the types of relief obtained through civil
                                     judgments or prefiling settlements.
                  8. 	A Unit cooperates with OIG and other Federal agencies in the
                      investigation and prosecution of Medicaid and other health care
                      fraud.
                       a.	 The Unit communicates on a regular basis with OIG and other
                           Federal agencies investigating or prosecuting health care fraud in
                           the State.
                       b.	 The Unit cooperates and, as appropriate, coordinates with OIG’s
                           Office of Investigations and other Federal agencies on cases being
                           pursued jointly, cases involving the same suspects or allegations,
                           and cases that have been referred to the Unit by OIG or another
                           Federal agency.
                       c.	 The Unit makes available, to the extent authorized by law and
                           upon request by Federal investigators and prosecutors, all
                           information in its possession concerning provider fraud or fraud in
                           the administration of the Medicaid program.
                       d.	 For cases that require the granting of “extended jurisdiction” to
                           investigate Medicare or other Federal health care fraud, the Unit
                           seeks permission from OIG or other relevant agencies under
                           procedures as set by those agencies.
                       e.	 For cases that have civil fraud potential, the Unit investigates and
                           prosecutes such cases under State authority or refers such cases to
                           OIG or the U.S. Department of Justice.
                       f.	 The Unit transmits to OIG, for purposes of program exclusions
                           under section 1128 of the Social Security Act, all pertinent
                           information on MFCU convictions within 30 days of sentencing,
                           including charging documents, plea agreements, and sentencing
                           orders.
                       g.	 The Unit reports qualifying cases to the Healthcare Integrity &
                           Protection Databank, the National Practitioner Data Bank, or
                           successor data bases.
                  9. 	A Unit makes statutory or programmatic recommendations, when
                      warranted, to the State government.
                       a.	 The Unit, when warranted and appropriate, makes statutory
                           recommendations to the State legislature to improve the operation
                           of the Unit, including amendments to the enforcement provisions
                           of the State code.


Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                 17
                       b.	 The Unit, when warranted and appropriate, makes other regulatory
                           or administrative recommendations regarding program integrity
                           issues to the State Medicaid agency and to other agencies
                           responsible for Medicaid operations or funding. The Unit monitors
                           actions taken by the State legislature and the State Medicaid or
                           other agencies in response to recommendations.
                    10. 	A Unit periodically reviews its MOU with the State Medicaid 

                         agency to ensure that it reflects current practice, policy, and 

                         legal requirements. 

                       a.	 The MFCU documents that it has reviewed the MOU at least every
                           5 years, and has renegotiated the MOU as necessary, to ensure that
                           it reflects current practice, policy, and legal requirements.
                       b.	 The MOU meets current Federal legal requirements as contained in
                           law or regulation, including 42 CFR 455.21, “Cooperation with
                           State Medicaid fraud control units,” and 42 CFR 455.23,
                           “Suspension of payments in cases of fraud.”
                       c.	 The MOU is consistent with current Federal and State policy,
                           including any policies issued by OIG or the CMS.
                       d.	 Consistent with Performance Standard 4, the MOU establishes a
                           process to ensure the receipt of an adequate volume and quality of
                           referrals to the Unit from the State Medicaid agency.
                       e.	 The MOU incorporates by reference the CMS Performance
                           Standard for Referrals of Suspected Fraud from a State Agency to
                           a Medicaid Fraud Control Unit.
                  11. 	A Unit exercises proper fiscal control over Unit resources.
                       a.	 The Unit promptly submits to OIG its preliminary budget
                           estimates, proposed budget, and Federal financial expenditure
                           reports.
                       b.	 The Unit maintains an equipment inventory that is updated 

                           regularly to reflect all property under the Unit’s control. 

                       c.	 The Unit maintains an effective time and attendance system and
                           personnel activity records.
                       d.	 The Unit applies generally accepted accounting principles in its
                           control of Unit funding.
                       e.	 The Unit employs a financial system in compliance with the
                           standards for financial management systems contained in
                           45 CFR 92.20.
                  12. 	A Unit conducts training that aids in the mission of the Unit.
Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)              18
                       a.	 The Unit maintains a training plan for each professional discipline
                           that includes an annual minimum number of training hours and that
                           is at least as stringent as required for professional certification.
                       b.	 The Unit ensures that professional staff comply with their training
                           plans and maintain records of their staff’s compliance.
                       c.	 Professional certifications are maintained for all staff, including
                           those that fulfill continuing education requirements.
                       d.	 The Unit participates in MFCU related training, including training
                           offered by OIG and other MFCUs, as such training is available and
                           as funding permits.
                       e.	 The Unit participates in cross training with the fraud detection staff
                           of the State Medicaid agency. As part of such training, Unit staff
                           provide training on the elements of successful fraud referrals and
                           receive training on the role and responsibilities of the State
                           Medicaid agency.




Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                 19
                  APPENDIX B
                  1994 Performance Standards28
                  1. 	A Unit will be in conformance with all applicable statutes,
                      regulations and policy transmittals. In meeting this standard, the
                      Unit must meet, but is not limited to, the following requirements:
                         a.	 The Unit professional staff must consist of permanent employees
                             working full-time on Medicaid fraud and patient abuse matters.
                         b.	 The Unit must be separate and distinct from the State Medicaid
                             agency.
                         c.	 The Unit must have prosecutorial authority or an approved formal
                             procedure for referring cases to a prosecutor.
                         d.	 The Unit must submit annual reports, with appropriate 

                             certifications, on a timely basis.

                         e.	 The Unit must submit quarterly reports on a timely basis.
                         f.	 The Unit must comply with the Americans with Disabilities Act,
                             the Equal Employment opportunity requirements, the Drug Free
                             workplace requirements, Federal lobbying restrictions, and other
                             such rules that are made conditions of the grant.
                  2. 	A Unit should maintain staff levels in accordance with staffing
                      allocations approved in its budget. In meeting this standard, the
                      following performance indicators will be considered:
                         a.	 Does the Unit employ the number of staff that was included in the
                             Unit’s budget as approved by the OIG?
                         b.	 Does the Unit employ the number of attorneys, auditors, and
                             investigators that were approved in the Unit’s budget?
                         c.	 Does the Unit employ a reasonable size of professional staff in
                             relation to the State’s total Medicaid program expenditures?
                         d.	 Are the Unit office locations established on a rational basis and are
                             such locations appropriately staffed?
                  3. 	A Unit should establish policies and procedures for its operations,
                      and maintain appropriate systems for case management and case
                      tracking. In meeting this standard, the following performance
                      indicators will be considered:
                         a.	 Does the Unit have policy and procedure manuals?



                  28
                       59 Fed. Reg. 49080, Sept. 26, 1994.

Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                20
                       b.	 Is an adequate, computerized case management and tracking
                           system in place?
                  4. 	A Unit should take steps to ensure that it maintains an adequate
                      workload through referrals from the State Medicaid agency and
                      other sources. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit work with the State Medicaid agency to ensure
                           adequate fraud referrals?
                       b.	 Does the Unit work with other agencies to encourage fraud
                           referrals?
                       c.	 Does the Unit generate any of its own fraud cases?
                       d.	 Does the Unit ensure that adequate referrals of patient abuse
                           complaints are received from all sources?
                  5. 	A Unit’s case mix, when possible, should cover all significant
                      provider types. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit seek to have a mix of cases among all types of
                           providers in the State?
                       b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                           patient abuse cases?
                       c.	 Does the Unit seek to have a mix of cases that reflect the
                           proportion of Medicaid expenditures for particular provider
                           groups?
                       d.	 Are there any special Unit initiatives targeting specific provider
                           types that affect case mix?
                       e.	 Does the Unit consider civil and administrative remedies when
                           appropriate?
                  6. 	A Unit should have a continuous case flow, and cases should be
                      completed in a reasonable time. In meeting this standard, the
                      following performance indicators will be considered:
                       a.	 Is each stage of an investigation and prosecution completed in an
                           appropriate time frame?
                       b.	 Are supervisors approving the opening and closing of 

                           investigations?

                       c.	 Are supervisory reviews conducted periodically and noted in the
                           case file?




Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                21
                  7. A Unit should have a process for monitoring the outcome of cases.
                     In meeting this standard, the following performance indicators will be
                     considered:
                       a.	 The number, age, and type of cases in inventory.
                       b.	 The number of referrals to other agencies for prosecution.
                       c.	 The number of arrests and indictments.
                       d.	 The number of convictions.
                       e.	 The amount of overpayments identified.
                       f.	 The amount of fines and restitution ordered.
                       g.	 The amount of civil recoveries.
                       h.	 The numbers of administrative sanctions imposed.
                  8. 	A Unit will cooperate with the OIG and other Federal agencies,
                      whenever appropriate and consistent with its mission, in the
                      investigation and prosecution of health care fraud. In meeting this
                      standard, the following performance indicators will be considered:
                       a.	 Does the Unit communicate effectively with the OIG and other
                           Federal agencies in investigating or prosecuting health care fraud
                           in their State?
                       b.	 Does the Unit provide OIG regional management, and other
                           Federal agencies, where appropriate, with timely information
                           concerning significant actions in all cases being pursued by the
                           Unit?
                       c.	 Does the Unit have an effective procedure for referring cases,
                           when appropriate, to Federal agencies for investigation and other
                           action?
                       d.	 Does the Unit transmit to the OIG, for purposes of program
                           exclusions under section 1128 of the Social Security Act, reports
                           of convictions, and copies of Judgment and Sentence or other
                           acceptable documentation within 30 days or other reasonable time
                           period?
                  9. 	A Unit should make statutory or programmatic recommendations,
                      when necessary, to the State government. In meeting this standard,
                      the following performance indicators will be considered:
                       a.	 Does the Unit recommend amendments to the enforcement
                           provisions of the State’s statutes when necessary and appropriate
                           to do so?
                       b.	 Does the Unit provide program recommendations to State 

                           Medicaid agency when appropriate? 



Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                22
                       c.	 Does the Unit monitor actions taken by State legislature or State
                           Medicaid agency in response to recommendations?
                    10. 	A Unit should periodically review its MOU with the State
                         Medicaid agency and seek amendments, as necessary, to ensure
                         it reflects current law and practice. In meeting this standard, the
                         following performance indicators will be considered:
                       a.	 Is the MOU more than 5 years old?
                       b.	 Does the MOU meet Federal legal requirements?
                       c.	 Does the MOU address cross-training with the fraud detection staff
                           of the State Medicaid agency?
                       d.	 Does the MOU address the Unit’s responsibility to make program
                           recommendations to the Medicaid agency and monitor actions
                           taken by the Medicaid agency concerning those recommendations?
                  11. 	The Unit director should exercise proper fiscal control over the
                       Unit resources. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit director receive on a timely basis copies of all fiscal
                           and administrative reports concerning Unit expenditures from the
                           State parent agency?
                       b.	 Does the Unit maintain an equipment inventory?
                       c.	 Does the Unit apply generally accepted accounting principles in its
                           control of Unit funding?
                  12. 	A Unit should maintain an annual training plan for all
                       professional disciplines. In meeting this standard, the following
                       performance indicators will be considered:
                       a.	 Does the Unit have a training plan in place and funds available to
                           fully implement the plan?
                       b.	 Does the Unit have a minimum number of hours training
                           requirement for each professional discipline, and does the staff
                           comply with the requirement?
                       c.	 Are continuing education standards met for professional staff?
                       d.	 Does the training undertaken by staff add to the mission of the
                           Unit?




Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                23
                  APPENDIX C
                  Detailed Methodology
                  Data collected from the seven sources below was used to describe the
                  caseload and assess the performance of the Unit.
                  Data Collection
                  Review of Unit Documentation. Prior to the onsite visit, we analyzed
                  information from several sources regarding the Unit’s investigation and
                  referral for prosecution of Medicaid cases. Specifically, we collected and
                  analyzed information about the number of referrals the Unit received, the
                  number of investigations the Unit opened and closed, the outcomes of
                  those investigations, and the Unit’s case mix. We also collected and
                  analyzed information about the number of cases that the Unit referred for
                  prosecution and the outcomes of those prosecutions. We gathered this
                  information from several sources, including the Unit’s quarterly statistical
                  reports, annual reports, recertification questionnaire, policy and
                  procedures manuals, MOU with the State Medicaid agency, and the report
                  from the previous OIG onsite review (in 2007). Additionally, we
                  confirmed with the Unit director that the information we had was current
                  as of January 2014, and as necessary, requested any additional data or
                  clarification.
                  Review of Unit Financial Documentation. We reviewed the Unit’s control
                  over its fiscal resources to identify any internal control issues or other
                  issues involving use of resources. Prior to the onsite review, we reviewed
                  the Unit’s financial policies and procedures; its response to an internal
                  control questionnaire; and documents (such as financial status reports)
                  related to MFCU grants. During the onsite review, we reviewed a sample
                  of the Unit’s purchase and travel transactions. In addition, we reviewed
                  vehicle records, the supply inventory, and a sample of time and effort
                  records.
                  Interviews with Key Stakeholders. In January 2014, we interviewed key
                  stakeholders, such as officials in the United States Attorneys’ Offices, the
                  Attorney General’s Office, and other agencies that interacted with the Unit
                  (Adult Protective Services, Medicaid Program Integrity Unit, Office of the
                  State Long Term Care Ombudsman, and Professional Licensure Division).
                  We focused these interviews on the Unit’s relationship and interaction with
                  OIG and other Federal and State authorities, and we identified opportunities
                  for improvement. We used the information collected from these interviews
                  to develop subsequent interview questions for Unit management.



Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)             24
                  Survey of Unit Staff. In January 2014, we conducted an online survey of
                  all nonmanagerial Unit staff within each professional discipline
                  (i.e., investigators, auditors, and attorneys) as well as support staff. The
                  response rate was 100 percent. Our questions focused on operations of the
                  Unit, opportunities for improvement, and practices that contributed to the
                  effectiveness and efficiency of Unit operations and/or performance. The
                  survey also sought information about the Unit’s compliance with
                  applicable laws and regulations.
                  Onsite Interviews with Unit Management. We conducted structured
                  interviews with the Unit’s management in February 2014. We interviewed
                  the Unit director (who also served as the Unit’s lead attorney) as well as
                  the chief investigator and auditor. We asked these individuals to provide
                  information related to: (1) the Unit’s operations, (2) Unit practices that
                  contributed to the effectiveness and efficiency of Unit operations and/or
                  performance, (3) opportunities for the Unit to improve its operations
                  and/or performance, and (4) clarification regarding information obtained
                  from other data sources.
                  Onsite Review of Case Files and Other Documentation. The Unit
                  provided a list of 460 cases that were open at any point during
                  FYs 2011through 2013. We excluded 77 cases that the Unit had
                  categorized as “global.” We then selected a simple random sample of
                  100 cases from the remaining 383 cases. This sample of 100 cases
                  included 92 cases that were open longer than 30 days and 88 cases that
                  were closed at some point during the review period. We reviewed all
                  100 sampled case files.29 Using the results of our review of the sampled
                  case files, we estimated proportions for all 383 case files, for the
                  subpopulation of cases open longer than 30 days, and cases closed during
                  the review period. These estimates and the 95-percent confidence
                  intervals are shown in Appendix F. From the initial sample of 100 case
                  files, we selected a further simple random sample of 50 files for a more
                  in-depth review of selected issues, such as the timeliness of investigations
                  and case development. We did not estimate any population or
                  subpopulation proportions from this additional sample of 50 case files.
                  Onsite Review of Unit Operations. During our February 2014 onsite visit,
                  we reviewed the Unit’s workspace and operations. Specifically, we
                  visited the Unit headquarters in Lincoln. While onsite, we observed the



                  29
                    One case file did not contain documentation for the reviewer to determine whether the
                  supervisor approved the opening of the case. As a result, this case was excluded from our
                  analysis for this specific data point, and projections for this data point are projected to
                  99 case files rather than 100.

Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                           25
                  Unit’s offices and meeting spaces, security of data and case files, location
                  of select equipment, and the general functioning of the Unit.
                  Data Analysis
                  We analyzed data to identify any opportunities for improvement and any
                  instances in which the Unit did not fully meet the performance standards
                  or was not operating in accordance with laws, regulations, and policy
                  transmittals.30




                  30
                     All relevant regulations, statutes, and policy transmittals are available online at
                  http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu.

Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                           26
                     APPENDIX D
                     Medicaid Fraud Control Unit Referrals by Referral Source for
                     FYs 2011 Through 2013
                                          FY 2011                               FY 2012                      FY 2013

                                          Abuse &        Patient                Abuse &    Patient           Abuse &    Patient
  Referral Source             Fraud                                     Fraud                        Fraud
                                           Neglect       Funds                   Neglect   Funds              Neglect   Funds
  Medicaid Agency –
  (Office of Quality
  Assurance) –
            31
  PI/SURS                         18              0            0           22         0         1       18         0         0
  Medicaid Agency –
  Attorney General                 0              0            1            1         0         0        6         0         0
  State Survey &
  Certification                    0              0            0            0         0         0        0         0         0
  Other State
  Agencies                         3              0            0            0         0         0        0         0         0
  Licensing Board
                                   0              0            1            1         0         0        0         0         0
  Law Enforcement
                                   0              0            0            0         0         1        0         0         0
  Office of Inspector
  General                          1              0            0            1         1         0        2         0         0
  Prosecutors
                                   0              0            0            0         0         0        0         0         0
  Providers
                                   1              0            3            6         0         1        0         0         1
  Provider
  Associations                     0              0            0            0         0         0       0          0         0
  Private Health
  Insurer                          0              0            0           0          0         0       0          0         0
  Long Term Care
  Ombudsman                        0              0            0           0          0         0       0          0         1
  Adult Protective
  Services                         3             41           27            8        17        16        6         4        33
  Private Citizens
                                   5              0            0            8         2         2        4         0         1
  MFCU Hotline
                                   0              0            0            2         0         0        1         0         0
  Other
                                  12              0            2           15         0         3       11         0         0
    Total                         41             41           33           62        20        22       47         4        36

    Annual Total                                             115                              105                           87

 Source: OIG analysis of Unit-submitted documentation, FYs 2011-2013.




                     31
                       “PI” = “program integrity”; “SURS” = “Surveillance and Utilization Review
                     Subsystem.”

Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                                 27
                      APPENDIX E
                      Investigations Opened and Closed By Provider Category for
                      FYs 2011 Through 2013
        Table E-1: Fraud Investigations

         Provider Category                        FY 2011                 FY 2012                FY 2013

         Facilities                          Opened     Closed      Opened         Closed   Opened    Closed

            Hospitals                               2          3            4           1        1                1

            Nursing Facilities                      1          1            1           2        1                1
            Other Long-Term Care
                                                    0          0            0           0        1                0
            Facilities
            Substance Abuse Treatment
                                                    0          0            0           0        1                1
            Centers
            Other                                   2          1            3           4        0                0

           Subtotal                                 5          5            8           7        4                3

         Practitioners                       Opened      Closed      Opened        Closed   Opened         Closed
            Doctors of Medicine or
                                                    3          0            2           3        2                4
            Osteopathy

            Dentists                                2          1            2           3        0                2

            Podiatrists                             0          0            1           0        0                1

            Optometrists/Opticians                  0          0            0           0        0                0

            Counselors/Psychologists                0          7            9           4        6                9

            Chiropractors                           2          0            2           2        0                0

            Other                                   1          1            2           3        0                0

           Subtotal                                 8          9           18          15        8             16

         Medical Support                     Opened      Closed      Opened        Closed   Opened         Closed

            Pharmacies
                                                    3          2            4           4        2                2
            Pharmaceutical
            Manufacturers                           9         10            8           9       13             14
            Suppliers of Durable Medical
            Equipment and/or Supplies               4          2            1           3        4                3
            Laboratories
                                                    0          1            0           0        0                0
            Transportation Services
                                                    0          0            0           1        0                1
            Home Health Care Agencies
                                                    0          1            6           4        2                1
            Home Health Care Aides
                                                  14           7           19          14       14             22
            Nurses, Physician Assistants,
            Nurse Practitioners, Certified
            Nurse Aides                             0          0            0           0        0                0
            Radiologists
                                                    0          0            0           0        0                0
            Medical Support—Other
                                                    0          0            1           0        1                0
           Subtotal                               30          23           39          35       36             43




Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                             28
   Table E-1 (Continued): Fraud Investigations

    Program Related                           Opened         Closed       Opened       Closed   Opened        Closed

        Managed Care                                  0             0              1        1        0                0

        Medicaid Program
                                                      0             0              0        0        0                0
        Administration

        Billing Company                               0             0              0        0        0                0

        Other                                         0             0              0        0        1                1

       Subtotal                                       0             0              1        1        1                1

       Total Provider Categories                    43            37           66          58       49            63

   Source: OIG analysis of Unit-submitted documentation, FYs 2011–2013.

  Table E-2: Patient Abuse and Neglect Investigations

   Provider Category                               FY 2011                    FY 2012               FY 2013


                                            Opened         Closed         Opened       Closed   Opened       Closed

       Nursing Facility                             20           28                5        5            0        2

       Other Long-Term Care                          6             9               1        1            0        1

       Nurses/Physician’s
       Assistant/Nurse
                                                     6           10                6        3            4        7
       Practitioner/Certified Nurse
       Aide

       Home Health Aide                              1             1               1        2            0        0

       Other                                         8           12                7        6            0        2

     Total                                          41           60            20          17            4       12

  Source: OIG analysis of Unit-submitted documentation, FYs 2011-2013.

  Table E-3: Patient Funds Investigations

   Provider Category                               FY 2011                    FY 2012               FY 2013


                                            Opened         Closed         Opened       Closed   Opened       Closed

       Nondirect Care                                0             1               1        0            0        1

       Nurses/Physician’s
       Assistant/Nurse
                                                     0             0               3        1            0        1
       Practitioner/Certified Nurse
       Aide

       Home Health Aide                              0             0               0        0            0        0

       Other                                        34           46            20          34        36          35

     Total                                          34           47            24          35        36          37

  Source: OIG analysis of Unit-submitted documentation, FYs 2011-2013.




Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                                          29
                  APPENDIX F
                  Point Estimates and 95-Percent Confidence Intervals Based on
                  Reviews of Case Files
                                                                                                       95-Percent
                                                                  Sample          Point             Confidence Interval
                    Estimate Characteristic
                                                                    Size       Estimate
                                                                                                     Lower                  Upper

                    Percentage of cases files that
                    were open longer than 30 days
                                                                        92        91.3%               84.8%                 95.2%
                    containing documentation of
                    periodic supervisory review

                    Total cases files that were open
                    longer than 30 days containing
                                                                        92           322                298                    335
                    documentation of periodic
                    supervisory review

                    Percentage of cases files that
                    were open longer than 30 days
                                                                        92        97.8%              93.0%                  99.3%
                    containing documentation of at
                    least one supervisory review

                    Total cases files that were open
                    longer than 30 days containing
                                                                        92           345                327                    350
                    documentation of at least one
                    supervisory review

                    Percentage of case files
                    containing documentation of                        99*        98.0%              93.4%                  99.4%
                    supervisory approval for opening

                    Total case files containing
                    documentation of supervisory                       99*           372                354                    377
                    approval for opening

                    Percentage of closed case files
                    containing documentation of                         88       100.0%              96.3%                100.0%
                    supervisory approval for closing

                    Total closed case files containing
                    documentation of supervisory                        88           327                315                    327
                    approval for closing

                  Source: OIG analysis of Nebraska Unit case files, 2014. 

                  *One case file did not contain documentation for the reviewer to determine whether the supervisor approved the 

                  opening of the case. As a result, this case was excluded from our analysis for this data point. 





Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                                                     30
                  APPENDIX G
                  Unit Comments




Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)   31
Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)   32
Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)   33
           contracb l~Omc up for renewal ur revision. In the me:mtimc, the ~vlFCU panicipates in
           quarterly mc.::tings hctwt:cn \kdicaid stafl anJ the various :VfCOs. !IAFCL' Performance
           Standard •l(a) requires that an ~·1FC'U "take steps, such as the development of operational
           protocols. to ensure that the State :..kdieaid agency, manngcd care organizations. anJ
           other agencies refer to the l:nit all 5Uspected provider fraud cases." We will ensure that
           this performance standard is met in tlw future.

            The Nebraska /Vkdi,·.aid Fraud and Patient Abuse t;nit appreciates the OIG 's clrorts
    during the on-sit~.: revi~.:w process. We e:;pecially appreciate the many positive lindings
    containnl in the report, which is not typically found in the customary audit-ba~cd reponing
    format. \Ve look forward to our continued good work in!:( relationship \\ith 010 and all of om
    federal •mJ st:lle partners in tight in!,! fraud within '\cbra>ka 's 1vkdil·aid program.

                                                 Sincerely yours,

                                                 JOJ\ BRt:NI:--JG
                                                 i\Uorncy General

                                                       /S/
                                                 D. 1\lark Collins
                                                 Assistant Attorm:y General
                                                 Director. iV!cdicaid FrauJ and Pati,,nt Abuse 1 'nit




Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)                         34
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Brian T. Whitley, Regional
                  Inspector General for Evaluation and Inspections in the Kansas City
                  regional office.
                  Rae Hutchison served as the team leader for this study. Other Office of
                  Evaluation and Inspections staff who conducted the study include
                  Michael P. Barrett, Susan Burbach, and Jordan R. Clementi. Office of
                  Investigations staff who conducted the study include Kelly Earl. Central
                  office staff who provided support include Christine Moritz and
                  Sherri Weinstein.




Nebraska State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-07-14-00060)             35
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
